No.19IN THE

CISCO SYSTEMS, INC.,

V.
SRI INTERNATIONAL, INC.

Petitioner,

Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.l(h), I, William F. Lee, a member of the
bar of this Court, certify that the accompanying Petition for a Writ of Certiorari
contains 5,782 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.l(d).
Executed on November 8, 2019.

WILLIAM F. LEE
WILMER CUTLER PICKERING
HALE AND DORR LLP

60 State Street
Boston, MA 02109
(61 7) 526-6000
william.lee@wilmerhale.com

